Supreme Court of the United States
No. 19-416
NESTLÉ USA, INC.,
Petitioner
v.
JOHN DOE I, ET AL.;
Respondents

and

No. 19-453
CARGILL, INC.,
Petitioner
v.
JOHN DOE I, ET AL.
Respondents

DECLARATION OF TERRENCE P. COLLINGSWORTH
I, Terrence P. Collingsworth, under penalty of perjury of the laws of the United
States, declare as follows:
1. I am counsel for Respondents John Does I-VI in the captioned cases and am the
Executive Director of the International Rights Advocates. I make the factual
assertions herein based on my personal knowledge, and I could testify under oath
to the truth of these matters should I be called upon to do so.
2. One of my responsibilities as a member of the legal team representing
Respondents is to be the contact person for Respondents. My prior organization,
International Labor Rights Forum (ILRF), first met the Respondents in 2004 when
we were doing research on trafficking children from Mali to Cote D’Ivoire to
harvest cocoa for the big cocoa companies. As is detailed in this article,

https://www.justsecurity.org/73959/nestle-cargill-v-doe-series-meet-the-johndoes-the-children-enslaved-in-nestle-cargills-supply-chain/, based on multiple,
lengthy interviews with them that I personally conducted, the John Does were all
abducted between 1996 and 1998 in Mali by traffickers, called in Mali “locateurs,”
who operate in places where boys are gathered looking for odd jobs, usually at a
bus station. The John Does were between the ages of 10-14 when they were
abducted. They were abducted when a locateur approached them and offered a
good paying job harvesting cocoa in Côte D’Ivoire. They were told they had to get
into a minibus the locateur was driving and leave immediately if they wanted the job.
Desperate for any work, they each complied.
3. Once they reached Côte D’Ivoire, the John Does were taken to remote cocoa
plantations where they were delivered to the farmers who essentially owned them
for the next few years. John Doe VI actually witnessed the farmer who
“purchased” him pay 20,000 CFA (approximately $40) to the locateur. John Doe VI
then worked without pay until he managed to escape three and a half years later.
None of the six John Does who are Respondents in this case received any pay
whatsoever in the years during which they labored on the cocoa plantations; like
most slaves they merely worked for (barely) enough food to keep them alive to
continue working.
4. The six John Does worked for two to four years on the plantations where they
were enslaved. They were constantly guarded and were punished if they tried to

escape. John Doe IV had the bottoms of his feet cut with a machete and the
wounds rubbed with pepper when he tried to escape. The others witnessed such
punishments being inflicted on other children. John Doe III witnessed another
child being forced to drink urine as a punishment for trying to escape. All of the
John Does were beaten with whips or branches by their overseers for failing to
work fast enough, and several sustained permanent injuries or scars from these
beatings.
5. Against all odds, with no money and no knowledge of where they were in relation
to Mali, each John Doe managed to escape and return to Mali, where ILRF and
then IRAdvocates met and interviewed them through the help of Abdoulaye
Macko, the former Counsel General of the Malian Embassy in Côte D’Ivoire.
Macko began pressuring his own government to do more about child trafficking
and started personally rescuing child slaves, including John Does IV and V.
Warned to stop creating diplomatic tensions with Côte D’Ivoire, Macko was fired
from his position and has been working as an advocate against trafficking and
slavery ever since.
6. Petitioners Nestle USA and Cargill have never disputed the facts regarding the
trafficking and enslavement of John Does I-VI; the companies merely dispute
whether they are legally responsible for what happened to them.
7. After our legal team filed the complaint in this case in 2005, I have personally
visited John Does I-VI on three occasions in Mali, and I frequently communicate

with them by phone through Abdoulaye Macko as none of them have phones. I
most recently communicated with them regarding the Supreme Court’s June 16,
2021 decision in their case.
8. Based on my contacts with John Does I-VI I do not believe that they have the
capacity, individually or collectively, to pay the costs requested by the Defendants..
When they escaped their enslavement and returned to Mali, they were penniless
and their situation, though improved, would not enable them to pay the costs the
Defendants seek.
9. I last personally visited the John Does in Mali in November 2019. I met them
together in Sikasso, a Malian town near the border of Cote D’Ivoire. Each of them
told me of the current conditions at that time. All of them are engaged in
subsistence farming and occasionally do odd jobs to earn money to buy staples for
their families. None of them currently earns more than $1,000 (U.S.) per year, and
most earn significantly less than that. This is normal in Mali where, according to
the World Bank, the annual per capita income is $859 (U.S.) per year:
https://data.worldbank.org/indicator/NY.GDP.PCAP.CD?locations=ML
10. The six John Doe Respondents are by any reasonable measure legally indigent.
The bill of costs awarded against them of $8,964.14 is an unimaginable sum to the
six former enslaved children who are now back in Mali merely trying to avoid

starvation and feed their families. The Respondents request that the cost award
be withdrawn.
11. At this time it is not possible to travel safely to where John Does I-VI live in Mali
because of unrest in Mali and because of COVID so it has not been possible to
obtain declarations from the Respondents themselves.

Executed this 30th day of July 2021 in Washington, D.C.
/s/ Terrence P. Collingsworth
Terrence P. Collingsworth

